IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1098
NATIONAL FOOTBALL LEAGUE, ET AL.,
Petitioners,
v.

NINTH INNING, INC., ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)

I, Christopher J. Kelly, counsel for amici curiae, hereby certify pursuant to
Rule 33.1(h) that, according to the word-count tool in Microsoft Word, the Brief of
Expert Antitrust Economists as Amici Curiae in Support of Petitioners contains 5815
words, including footnotes and excluding the sections enumerated by Rule 33.1(d).
The Brief therefore complies with Rule 33.1(g).

Christopher J. Kelly
Mayer Brown LLP
Two Palo Alto Square, Suite 300
Palo Alto, CA 94306
cjkelly@mayerbrown.com
(650) 331-2000

